                         OFFICE OF THE INSPECTOR GENERAL
                         CORPORATION FOR NATIONAL AND
                               COMMUNITY SERVICE




                            PRE-AUDIT SURVEY OF THE
                       TEXAS COMMISSION ON VOLUNTEERISM
                            AND COMMUNITY SERVICE

                               OIG Audit Report Number 0 1-23
                                     October 3 1,2000




                                         Prepared by:

                                       KPMG LLP
                                   2001 M Street, N.W.
                                  Washington, D.C. 20036

                            Under CNS OIG MOU # 98-046-5003
                               With the Department of Labor
                               DOL Contract # J-9-G-8-0022
                                    Task # B9GOV203




This report was issued to Corporation management on February 20, 2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions
on the report's findings and recommendations no later than August 20, 2001, and complete its
corrective actions by February 20, 2002. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                         OFFICE OF THE INSPECTOR GENERAL
                         CORPORATION FOR NATIONAL AND
                               COMMUNITY SERVICE




                       PRE-AUDIT SURVEY OF THE
       TEXAS COMMISSION ON VOLUNTEERISM AND COMMUNITY SERVICE

                              OIG Audit Report Number 0 1-23
                                    October 3 1,2000




                                        Prepared by:

                                       KPMG LLP
                                   2001 M Street, N.W.
                                  Washington, D.C. 20036

                            Under CNS OIG MOU # 98-046-5003
                               With the Department of Labor
                               DOL Contract # J-9-G-8-0022
                                    Task # B9GOV203




This report was issued to Corporation management on February 20, 2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions
on the report's findings and recommendations no later than August 20, 2001, and complete its
corrective actions by February 20, 2002. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                  Office of Inspector General                                 CORPORATION
                        Corporation for National and Community Service                        FOR NATIONAL

                                 Pre-Audit Survey of the                                       SERVICE
                  Texas Commission on Volunteerism and Community Service
                             OIG Audit Report Number 01-23


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps StatehJational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.
Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility. However,
the Corporation lacks a management information system that maintains comprehensive information on
its grants including those to state commissions and subgrantees. Moreover, although the Corporation
began state commission administrative reviews in 1999, the Corporation, historically, has not carried
out a comprehensive, risk-based program for grantee financial and programmatic oversight and
monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part of
state-wide audits under the Single Audit Act due to their size relative to other state programs.
Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting). They
are a tool that allows OIG to plan future audit work related to the state commission's operations. For
each survey, we also issue a report to the state commission and to the Corporation communicating the
results and making recommendations for improvement, as appropriate. Recommendations for future
audit work consider the pre-audit survey results, known audit coverage, and the amount of funding.
We engaged KPMG LLP toperform thepre-audit survey of the Texas Commission on Volunteerism and
Community Service. Based on the limitedproceduresperformed, KPMG concluded that the Commission
administers an open, competitive process to select national service subgrantees. KPMG also concluded
that the commission has established controls over its fiscal administration and monitoring.
However, KPMG 's report recommends improvements in all three areas covered by this survey. KPMG
also recommendsfollow-up by the Corporation and that OIGperform afull-scope audit of CNSfunding
to the Commissionsfor all program years.
The Texas Commission's response (Appendix C) agreed with certain of the recommendations, disagreed
with others, and provided alternatives as well as additional information. The Corporation's response
(Appendix D), generally agrees with the recommendations. As described on page 5, KPMG reviewed
the responses and revised certain portions of the report. CNS OIG reviewed the report and work papers
supporting its conclusions. We concur with findings and recommendations presented.


                                                                                          Inspector General
                                                                                          1201 New York Avenue, NW
                                                                                          Washington, DC 2 0 2 5
                                     Pre-Audit Survey of the
                     Texas Commission on Volunteerism and Community Service
                                        Table of Contents



RESULTS IN BRIEF .......................................................................................................................
                                                                                                                                    1

BACKGROUND .............................................................................................................................
                                                                                                                                   2

OVERVIEW OF THE TEXAS COMMISSION ON VOLUNTEERISM AND COMMUNITY
  SERVICE ..................................................................................................................................
                                                                                                                                        3

OBJECTIVES. SCOPE. AND METHODOLOGY ........................................................................
                                                                                                         4

FINDINGS AND RECOMMENDATIONS ....................................................................................
                                                                                                              6

APPENDIX A. COMMISSION FUNDING: INCEPTION THROUGH 1999-2000 .................A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
                                                                                                                            B .1
   METHODOLOGY ................................................................................................................

APPENDIX C. TEXAS COMMISSION ON VOLUNTEERISM AND COMMUNITY
   SERVICE RESPONSE .........................................................................................................
                                                                                                                          C .1

                                                                                                         D .1
APPENDIX D. CORPORATION RESPONSE ...........................................................................
             2001 M Street, N.W.
             Washington, D.C. 20036




October 3 1,2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a preaudit survey of the Texas Commission on Volunteerism
and Community Service (the Commission). The primary purpose of this survey was to provide a
preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishments.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, the Commission was not able to provide certain documentation
    related to the selection of subgrantees and the Commission could not locate signed conflict
    of interest forms for all selection officials.

    The Commission has developed control policies and procedures to administer the
    Corporation's grant funds. However, the Commission was not able to document the
    timeliness of receipt of financial status reports (FSRs) prior to program year 1997-98, and
    could not document that the Commission had corresponded with subgrantees that were
    delinquent on their match requirements.

    The Commission has established controls to evaluate and monitor subgrantees. However,
    the Commission should improve its monitoring tool, procedures for completing the tool, and
    documentation of the results of site visits. Additionally, it should establish and follow a
    formal schedule for the conduct of timely site visits.

The section below entitled Findings and Recommendations discusses the weaknesses noted
above in further detail and addresses other issues noted during the survey.



                                                                             1

1111            KPMG LLP KPMG LLP a U 5 m t e d lhabtl8ty piirtnershp,
                a member of KPMG Internatonal a S w s s assocaton
                                                                         s
The Commission's AmeriCorps grants have not previously been tested as major programs under
OMB Circular A-133 audits performed by the State of Texas - State Auditor's Office. However,
we were informed by the State Auditor's Office that the Commission's AmeriCorps grants have
been identified as a major program for the State's fiscal year 2000 state-wide single audit. This
report is scheduled to be released in April 200 1. Therefore, based on our preliminary
assessments and the level of funding provided to the Commission, we recommend the OIG
perform a full scope audit of the Commission for all program years. However, we recommend
the OIG consider the nature of the findings presented herein, along with the corrective actions
already implemented by the Commission, in determining the extent of procedures to be
performed.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
Overview of the Texas Commission on Volunteerism and Community Service

The Texas Commission on Volunteerism and Community Service, located in Austin, Texas, has
received federal grant funds from the Corporation since program year 1994-95. The
Commission consists of 15 governor appointees. As of October 3 1, 2000, the Commission had a
staff of 22 personnel working under an Executive Director. The Texas Workforce Commission
(TWC) currently serves as the Commission's fiscal agent. Prior to August 3 1, 1996, the
Commission's fiscal agent was the State of Texas General Services Commission.

As part of the State of Texas General Services Commission and State of Texas Workforce
Commission, the Commission has been annually considered in the statewide OMB Circular A-
133 audits conducted by the State Auditor. However, the State Auditor utilizes a risk-based
audit approach, and the Commission's AmeriCorps grants have never been identified as major
programs subject to detailed compliance testing.

The Commission provided us with the following information:

                                                                    Number of
                                                                   Subgrantees
                             Total Corporation     Number of        Subject to
        Program Year             Funding"          Subprantees
                                                   -~             A-1 33 Audits**

                                                        16               12
                                                        16               15
                                                        19               17
                                                        26               17
                                                        46               11
                                                        47               13

*    Excludes carryover and state matching funds shown in Appendix A
**   Based solely on dollar value of federal awards passed through the Commission for each
     program year. The Commission's fiscal agent, TWC, maintains records of all Federal funds
     received by subgrantees and monitors OMB Circular A- 133 requirements.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1994-95 through 1999-2000.
Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide a preliminary assessment of the systems and procedures in place
at the Commission for administering its AmeriCorps grants, for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment o f :

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission; and
    the effectiveness of monitoring of its Corporation-funded subgrantees, including
    AmeriCorps Member activities and service hours and program accomplishments.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's State
    Administrative Standards Tool, and other information to gain an understanding of legal,
    statutory and programmatic requirements;

    reviewing OMB Circular A-1 33 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1994-95 through 1999-2000;
    and

    performing procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, and evaluation and monitoring of
    grants, including AmeriCorps Member activities and servlce hours and program
    accomplishments.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all preliminary findings identified to
date with Commission management during a site visit exit meeting on October 3 1, 2000. We
also communicated with the Commission to clarify and resolve certain matters related to our
preliminary findings and to obtain additional information to finalize our report. The
Commission was provided a copy of all findings included herein.
Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission or its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as Appendix
C and Appendix D, respectively. We corrected the funding information presented on page 3 and
in Appendix A of this report, and deleted our finding and recommendation related to
Maintenance of Grant Award Financial Information, based on additional information provided
by the Commission in its response. No other substantive changes were made to the report. We
continue to believe our recommendations presented in the Findings and Recommendations
section of this report, if implemented, will result in improvements to internal controls over
Commission operations.
m a
Findings and Recommendations

Selecting Subgrantees

45 CFR Section 2550.80(b)(l) states, "Each State must administer a competitive process to
select national service programs to be included in any application to the Corporation for
funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through mailing lists, newspapers and
newsletters. In addition, selection officials receive an instruction package and use a standard
form to evaluate each applicant, which included an evaluation of the applicants financial systems
beginning in program year 1997-98.

We identified the following areas for improvement within the selection process.

        Assessment of Applicants' Financial Systems during the Selection Process

For program years prior to 1997-98, documentation either does not exist or does not clearly
indicate that selection officials considered the adequacy of the applicants' financial systems
during the Commission's subgrantee selection process. The application form provided by the
Corporation for National Service does not specifically address the applicant's financial systems
and, prior to 1999-2000, Commission selection procedures did not specifically require
Commission personnel to request additional information from the applicants related to their
financial systems. As a result, grant funds may have been provided to an organization that did
not have financial systems in place to properly account for those funds and ensure compliance
with related grant requirements. AmeriCorps Provisions Section C.21.a states, "The grantee
must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as
necessary." In order to meet this responsibility, the Commission must be able to ensure that
subgrantees have systems in place to accurately track expenditures, since this information forms
the basis of a majority of Commission expenditure reporting. No recommendation is considered
necessary for this finding since the Commission's current procedures include an evaluation of
potential subgrantee's financial systems as part of the selection process.

        Missinghadequate Selection Process Documentation

Ensuring the greatest objectivity and impartiality possible in the review and selection of
subgrantees is a key element of the selection process. In carrying out this responsibility, the
Commission should ensure that complete documentation for all funding decisions is maintained
in all applicants' files. Of 30 applicants' files reviewed (10 renewal, 10 newly funded and 10
rejections), we noted the following:

        Scoring sheets could not be located for 8 applicants: 3 renewal applicants (2 in 1995-96
        and 1 in 1998-99), 3 newly funded applicants (1 in 1995-96, 1 in 1996-97, and 1 in 1998-
        99) and 2 rejected applicants (both in 1995-96).

        The letter used to communicate funding decisions to 2 rejected applicants (both 1994-95)
        was a "form" letter and the reasons for rejection were not clearly communicated.
No recommendation is considered necessary for this finding since the Commission currently has
procedures in place to ensure applicant's files are properly maintained. However, in order to
maintain the confidentiality of the selection official's individual scoring, we suggest the
Commission consider destroying all scoring sheets after funds have been awarded.

        Missing Conflict of Interest Forms for Selection Of5cials

An important part of a sound control environment is the implementation of procedures to ensure
objectivity within the selection process. One way to ensure this objectivity is to require selection
officials to annually certify in writing that they have no conflicts of interest. If selection officials
have conflicts of interest but do not report them, the fairness of the selection process may be
impaired. All persons participating in the selection process should have signed conflict of
interest statements on file.

We noted the following regarding maintenance of conflict of interest forms:


Prior to1 998             None of the forms could be located
1998-1999                 5 of 14 forms could not be located
1999-2000                 7 of 15 forms could not be located
2000-200 1                5 of 15 forms could not be located

We recommend the Commission enforce its requirement that selection officials sign conflict of
interest statements and that this documentation be maintained. Annually, after discussion of
related issues with Commission staff and review of guidance provided, the Commission should
prepare a listing of selection officials and ensure that signed conflict of interest forms are on file
before the selection process begins.

Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity7'(45CFR Section 2541.400 (a)).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to withhold funding payments if subgrantees do not submit FSRs timely;
to manage cash draw downs and disbursements to subgrantees made by TWC as the
Commission's fiscal agent; and to ascertain whether subgrantees have met their matching
requirements. The Commission's personnel have adequate skills and experience to manage and
administer Corporation grant funds. However, we identified the following matters related to the
grant administration process.
        Follow Up with Subgrantees Regarding Delinquent Matching Requirements

The Commission has developed policies and procedures which require that subgrantee matching
requirements be analyzed on a quarterly basis in conjunction with review of the quarterly FSR.
When a subgrantee is deficient on its matching requirement, the Commission's policies and
procedures require that a grant officer follow-up via a memo and that the subgrantee respond in
writing with a plan for correcting the deficiency. However, we noted that this process is being
conducted on an informal basis (i.e., via conversations) only. As a result, the Commission is
unable to document that controls over monitoring of matching requirements are functioning as
designed.

In order to improve the effectiveness of its grant administration process, we recommend the
Commission enforce its policy to document its follow up efforts regarding subgrantee matching
requirements.

        Timely Submission of FSRs

The Commission could not provide documentation to support the timely receipt of FSRs prio~to
program year 1997-98. The Commission does utilize a date received stamp; however, the stamp
was not consistently used prior to 1998. Logs of FSRs received for these periods either were not
maintained or were lost. However, no recommendation for this finding is necessary became the
Commission currently has a tracking system in place and is using the Web Based Reporting
System (WBRS) which automatically documents the date the FSF. was submitted.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved. The Commission has established a process to evaluate and monitor subgrantees,
which includes reviewing program and financial reports and scheduling site visits for each
subgrantee during the grant period. Additionally, the TWC has controls in place to obtain and
review subgrantee OMB Circular A- 133 reports, and follow up on corrective actions, if
applicable. Commission personnel use a standard site visit report form to document results of
each visit, and the Commission notifies the subgrantees in writing of the results of these site
visits, including strengths, weaknesses, concerns, recommendations, and any necessary follow-
up requirements.

We identified the following area for improvement related to the evaluation and monitoring of
subgrantees.

        Site Visit Scheduling. Execution, and Documentation

AmeriCorps Provisions Section C.20.a states, "The Grantee has full fiscal and programmatic
responsibility for managing all aspects of grant and grant-sponsored activities, subject to the
oversight of the Corporation. The Grantee is accountable to the Corporation for its operation of
the AmeriCorps Program and the use of Corporation grant funds."
We reviewed the Commission's site visit monitoring tool, AtneriCorps Site Visit Monitoring
Tool - First Site Visit, and noted that it does not include specific requirements to review for
prohibited activities. In addition, the Commission does not maintain a listing of site visits
planned and performed, and there is a lack of control over ensuring that site visits are performed
timely.

We judgmentally selected 19 subgrantees and requested copies of site visit documentation. Of
the 19 sample items, there was no documentation that a site visit was performed for 4 of the
subgrantees (one in program year 1994-95, two in 1996-97, and one in 1997-98).

In addition, for the 15 site visit reports reviewed, we noted the following:

    7 site visit reports did not adequately document whether Member timesheets were reviewed
    and, although 3 other site visit reports stated that Member timesheets were reviewed, detail
    of which Members' timesheets were tested was not documented;
    3 site visit reports did not adequately document that FSRs and related supporting
    documentation were reviewed;
    3 site visit reports of 4 tested for the period after WHRS was implemented indicated that a
    sample of Member timesheets was agreed to WBRS, but detail of which Members'
    timesheets were tested was not documented:
    5 site visit reports did not adequately document that program evaluation documentatior, was
    reviewed; and
    11 site visit reports did not adequately document that program performance statistics were
    reviewed.

We conclude that the Commission has not properly adhered to its established policies and
procedures which provide that site visits be c,onducted on a timely basis and the results of such
site visits be fully documented and maintained in subgrantee files. As a result, control
weaknesses or instances of material noncompliance related to the AmeriCorps program of which
the Commission is not aware may exist and not be corrected.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Revise the site visit monitoring tool to include specific procedures to determine whether
    Member hours were spent on allowable activities and in accordance with the intent of the
    grant and the program, and that prohibited activities were not performed.

    Establish and follow an annual site visit plan. The Executive Director should periodically
    perform a review to ensure that site visits are being conducted as planned.

    Document the results of all site visits and conclusions related to all identified issues. Where
    items are tested on a sample-basis, the sample tested should be documented in the site visit
    monitoring tool.
This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Texas Commission on Volunteerism and Community Service, and the United States Congress
and is not intended to be and should not be used by anyone other than these specified parties.
                                            Commission Funding                            Appendix A

           The table below and the flowcharts on the following pages depict the Commission's funding
           since program year 1994-95. We were unable to agree the funding amounts to the Commission's
           Financial Status Reports because the funding information was not prepared by the Commission
           until after we had completed fieldwork.


Funding Source and Type

CNS Formula Grant Funds

CNS Competitive Grant Funds

CNS Educational Awards
Only

CNS Other - FEMA Funds

CNS Learn and Serve Funds

Promise Fellows

CNS America Reads Funds

Governor's Initiative Awards

CNS Disability Funds

CNS PDAT Funds

CNS Administrative Funds

CNS Carryover Funds

State Matching Funds

 Total Funding


           * State matching funds for these program years are partial amounts only. Total state matching
           funds were not available from the Commission.
                                                                                                        Appendix A
                                    Commission Funding


                              -


                                        Corporation for National Service

        Funding to the Texas Commission on Volunteerism and Community Service
                                       1994-95




                                                 /

                                                                                         1
    AmeriCorps            AmeriCorps                 Funds                               Adrn~nlstrat~on
                                                                                              Funds
      Formula             Competitive                                  Funds
       Funds                 Funds                                                        S   1,191,240
    $ 4,009,285           $ 2,445,636                                 $90.000
                                                                                              Match
                                                                                              $67,298




                                  v                    +                 +
                   Total CNS Funds Retained by the Commission $ 1,281,240
                          Total Commission Matching Funds $ 67,298
                     Total CNS Funds Awarded to Sub-grantees $6,485,921



                                  *
                          Amencorps                AmeriCorps
                                                                      L
                                                                           FEMA
                           Formula:                Competitive:           Funds
                          $4,009,285               $ 2,445,636           S3 1,000

                             Match                    Match                Match
                                  (1)                   (1)                  $0

                        Total # of SUBS           Total # of SUBS     Total Y of SUBS
                                   7                     8                   I

                         Total # of Sites          Total # of S~tes   Total # of S~tes
                                24                        26                 I


Notes:
(I ) AmeriCorps Formula and Competitive match cannot be segregated. Combined total is $2,503,294.
(2) CNS approved $243,776 of carryover from the Commission's in~tialadministrative grant for administratwe
     use in 1994-95. This amount is not reflected above.
                                                                                           Appendix A
                             Commission Funding


                              Corporation for National Service




             Total CNS Funds Retained by the Commission $ 1,078,733
                   Total Commission Matching Funds $l6,7 12 (2)
               Total CNS Funds Awarded to Sub-grantees $ 9,788,657



                    i
                      AmerlCorps                            ArneriCorps
                          Formula:                          Competitive:
                      $   3,745,359                         S 6,043,298

                       Match ( 1 )                            Match ( 1 )

                    Total # of SUBS                        Total # of SUBS
                            10                                     6

                     Total # of Sites                      Total # of Sites
                           23                                     30



AmeriCorps Formula and Competitive match cannot be segregated. Combined total is $3,982,739.
Partial match only. Total matching funds are not available.
CNS approved $39,128 and $124,000 of carryover from 1994-95 for use in 1995-96 for AmeriCorps
FormulaiCompetitive and Adm~nistrativegrants, respectively. These amounts are not reflected above.
                                                                                                                   Appendix A
                                         Commission Funding


                                         Corporation for National Service

           Funding to the Texas Commission on Volunteerism and Community Service
                                          1996-97
       I




                                                                                             -
                                             AmeriCorps               PDAT                       Adrninlstrat~on
                                                                                                     Funds
                   Formula                   Competitive              Funds
                                                                                                   $ 329,764
                    Funds                       Funds
                 $ 5,446,732                 $ 8,026,270                                               Match
                                                                     $ 168,000                      $109,514 (2)

                                                                                                    Other Funds
                                                           -                                         $272,713




                      Total CNS Funds Retained by the Commission $ 770,477
                           Total Commission Matching Fund $1O9,5 14 (2)
                      Total CNS Funds Awarded to Sub-grantees $ 13,473,002




                                AmeriCorps                                        AmeriCorps
                                 Formula.                                         Competitive
                                $ 5,446,732                                       $ 8,026270

                                  Match ( I )                                      Match ( 1 )

                               Total # of SUBS                                   Total # of SUBS
                                       9                                                 10

                               Total # of S ~ t e s                              Total # of Sites
                                     26                                                37




Notes:
( 1) AmeriCorps Formula and Competitive match cannot be segregated. Combined total is $7,037.10 1
(2)
 . . Partial match only. Total matching funds are not available.
(3) CNS approved $j04,630 and $1 10200 of carryover from 1995-96 for use in 1996-97 for Administrative and
     PDAT grants, respectively. These amounts are not reflected above.
                                                               A.4
                                                                                                           Appendix A
                                              Commission Funding


                                                                                   -   -
                                                                                       -


                                            Corporation for National Service

           Funding to the Texas Commission on Volunteerism and Community Service
                                                                                                            1
                                          1997-98




      AmeriCorps                   AmeriCorps         Educational                          Adrnm~strat~on
       Formula                     Competitive        Award Only                              Funds
        Funds                                                                               $598,582
                                     Funds
       $4,440,160                  $   8,724,138         $24,000             $   95,664
                                                                                               Match
                                                                                              $800,324




      -r
                              Total CNS Funds Retained by the Commission $ 694,246
                                    Total Commission Matching Funds $ 800,324
                              Total CNS Funds Awarded to Sub-grantees $ 13,188,298




       Amer~Corps                                      AmerlCorps                          ducat~onalAward
        Formula                                        Competltlve                          Only Program
       9 4.440,160                                     S 8.721.138                            9 24,000

           Match                                           Match                                   Match         I
                                                                                                    $0

                                                      Total # of SUBS                      Total   #   of SUBS
                                                              12                                       I

      Total tt of S ~ t e s                           Total # of S ~ t e s                 Total tl of Sltes
                                                             32                                        1



Notes:
( 1 ) AmeriCorps Formula and Competitive match cannot be segregated. Combined total is $8,410,682.
(2) CNS approved $1,18 1,982 and $168,164 of carryover from 1996-97 for use in 1997-98 for AmeriCorps
      FormulalCompetitive and PDAT grants, respectively. These amounts are not reflected above.
                                                                                                                                  Appendix A
                                                       Commission Funding

                                                     Corporation for National Service

                    Funding to the Texas Commission on Volunteerism and Community Service
                                                   1998-99




                                                                                         -                                 I                  I

                                          Amenca            Prom~se                             Educat~onal            PDAT           Adm~n~strat~on
                                           Reads            Fellows                             Award Only             Funds             Funds
                                           Funds            Funds (3)                              Funds
                                          $825,901           $85,291                              $25.300             S 256,200          % 644.945

                                                                                                                                          Match
                                                                                                                                         $906.088

                                                                                         -
  1                      v                                                                          v                    v                    v
                              Total CNS Funds Retained by the Commission $ 1,286,842
                                     Total Commission Matching Funds $ 906,088
                               Total CNS Funds Awarded to Sub-grantees $ 11,095,661




&                                                                                                       -A!--                           v
 AmenCorps                    Amer~Corps                     Prom~se           Amer~ca                  Learn & Serve               Educational
  Formula:                    Competltive                  Fellows (3)          Reads                                               Amard Only
 $ 3.526,786                   $6,798.37 1                  $1 15,000          $470,125                   $160,079                   Program
                                                                                                                                     $ 25,300
    Match                         Match                       Match              Match                      Match
     (1)                           (1)                       $24,157                                       $ 77.914                    Match
                                                                                                                                        50
Total # o f SUBS             Total # o f SUBS            Total # o f SUBS
         14                          II                          7                                      rota1 # of SUBS           Total ii of SIJBS
                                                                                                                7                         3
Total    of Sites
        ii                   Total it of S ~ t e s       Total # o f Sites   Total # of Sites
        28                          29                          7                   2                   Total X of Sites          Total ~ of Sites
                                                                                                               7                         5


  Notes:
  ( 1 ) AmeriCorps Formula and Competitive match cannot be segregated. Combined total is $9,010,777.
  (2) CNS approved $2,811,276, $150,018 and $81,800 of carryover from 1997-98 for use in 1998-99 for Amen-
        Corps Formula/Competitive. Administrative and PDAT grants, respectively. These amounts are not
        reflected above.
  (3) Original CNS funding of $1 15,000 was awarded to subgrantees prior to deobligation of Promise Fellow
        fund~ngby CNS of $29.709.
                                                          Commission Funding                                                                Appendix A


                                                      Corporation for National Service

                   Funding to the Texas Commission on Volunteerism and Community Service
                                                 1999-2000




AmeriCorps

 FELT:
5 4,685,980
                 11 1 ArnerlCorps
                      Competitive
                         Fun:
                      S 7,106,462
                                                   Governor's
                                                    Initiative
                                                     Awards
                                                    5318,238
                                                                               Promise
                                                                               Fellows

                                                                               $1 18,000
                                                                                                        Learn &
                                                                                                          Serve
                                                                                                          Funds
                                                                                                        5 190,000
                                                                                                                       Educat~onal
                                                                                                                       Award Only
                                                                                                                         Funds
                                                                                                                         $1,000
                                                                                                                                           Adm~n~strat~on
                                                                                                                                              Funds

                                                                                                                                             S 644.590

                                                                                                                                              Match
                                                                                                                                             $618,132




                              Total CNS Funds Retained by the Commission $ 705,978
                                    Total Commission Matching Funds $ 6 18,132
                              Total CNS Funds Awarded to Sub-grantees $ 12,358,292




                           i ii
 Amer~Corps                 AmerKorps                                Prorn~se                Gobernor's             Learn & Serve            Educat~onal
  Formula                   Competltlve                              Fellows                  ln~t~atlve              $131.612               Award Only
 S 4,685,980                 57.106,462                             51 15,000                  Awards                                         Prosram
                                                                                              5318.238                  Match                 5 1.000
         Match                   Match                                Match                                            S 65.442
          (1)                     (1)                                512,775                    Match                                            Match
                                                                                                 $0                                               SO
Total if of SUBS           rota1 if of SUBS                  Total # o f SUBS                                       Total # of SUBS
        21                         II                                7                     Total Y of SUBS                  6              Total   ti   ofSL!BS
                                                                                                   I                                                    I
Total # of Sites            Total # of S ~ t e s                 Total # o f S ~ t e s                              Total X of S ~ t e s
          -55-                     20                                    7                 Total ri of S ~ t e s           6                Total Y of S ~ t e s
                                                                                                   I1                                              I



    Notes:
    ( 1 ) AmeriCorps Formula and Competitive match cannot be segregated. Combined total is $7,265,47 1
    ( 2 ) CNS approved $3,929,669 of carryover from 1998-99 for use In 1999-2000 for AmeriCorps
          FormulaiCompetitive grants. This amount is not reflected above.
                           Detailed Engagement Objectives
                                  and Methodology                                 Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (I) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; procurement, suspension and debarment; subrecipient
monitoring; and reporting by the Commission to the Corporation. We then interviewed key
Commission personnel to assess the Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms were signed by selection officials annually and maintained
by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminary assessed whether the Commission's
implementation of the Web Based Reporting System (WBRS) has enhanced the grant
administration process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to implement a comprehensive, non-duplicative evaluation and monitoring
    process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of internal controls over service hour and program
    accomplishment reporting.
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
January 29, 2001.


Luise S. Jordan
Office of the Inspector General
1201 New York Avenue, NW
Washington, DC 20525

Dear Ms. Jordan:

Enclosed for your review is our response to your draft report resulting from your
pre-audit survey of the Texas Commission on Volunteerism and Community
Service. In addition, as requested, you will find a separate document correcting
errors and clarifying facts. We are grateful for your careful attention to these
important matters, and are available should you have any questions or comments.

i
Sincerely,          I
C
Lesley Airth
Acting Executive Director
Texas Commission on Volunteerism and Community Service

cc: Cassie Carlson Reed
Executive Director
Texas Workforce Commission
TxCVCS general comments to pre-audit survey:

The Texas Commission on Volunteerism & Community Services (TxCVCS) appreciates
the opportunity to respond to the pre-audit survey conducted by the Office of Inspector
General (OIG). Since the existence of TxCVCS in 1994, there have been tremendous
improvements with the grant-making processes. TxCVCS would like to note that most
issues identified in the report dealt with the early years of the Commission and
improvements have been made addressing most issues.

Below is a revision of the chart on page 3 of the report based on corrections to Appendix
A-Page A.l and the funding charts, explained in the remainder of this document:

Program Year          Total Corporation     Number of Sub-         Number of Sub-
                      Funding-              grantees
                                            -                      grantees Subject to
                                                                   A-133 Audits
1994-95               $7,834,459            15                     12
1995-96               10,884,102            16                     15
1996-97               14,352,993            19                     17
1997-98               14,682,868            26                     17



TxCVCS requests consideration to remove the comment stating that the Commission
was not able to provide funding amount for grants received from the Corporation for
National Service (CNS). These amounts were provided initially in spreadsheets via
email. In addition, TxCVCS requests that the additional information provided in the
response to OIG are considered prior to planning additional audit work of TxCVCS and
its subgrantees for all program years.

We appreciate the recommendations proposed. In some cases, we do not agree with
some of the recommendations, but have included alternatives for those
recommendations.



TxCVCS Responses to Specific Findings and Recommendations:

Selecting Subgrantees

We agree proper documentation is needed in the selection of subgrantees. To ensure
our selection process is auditable, we will maintain all documentation, including the
scoring sheets, for up to three years or until the grant is closed out. In addition,
procedures will be updated to include a conflict of interest statement on each voting
members ballot, which are maintained in permanent commission files within the Agency.
As acknowledged, we have a system in place for assessing applicants financial systems
during the selection process. Please consider further documentation provided at the
pre-exit conference to show this process was in place since program year 1997-1998.
Administering Grant Funds

We agree improvements can be made to the grant administration process.
Our current grants from the Corporation separates AmeriCorps grants between
competitive and formula grants. As a result, we will be able to track matching in this
manner for Year 7 forward. In addition, we will ensure enforcement of our current policy
for following up with subgrantees when match is delinquent. A quarterly report will be
created comparing budgeted match' percentages to the actual percentage of match
expenditures and in-kind contributions. We will continue to track timely receipt of
financial status reports (FSRs) using the WBRS system and the Commission Report
Log.

We did, however, provide the requested financial information related to the total amount
of funding received from the Corporation by program year and the amounts passed
through to subgrantees. We agree that we did not segregate subgrantee matching
funds for AmeriCorps grants between competitive and formula funds, but did track
subgrantee matching funds aggregately. A requirement was not in place to report and
track the single grant in question by segregating the matching funds by formula or
competitive.


Evaluating and Monitoring Subgrantees

We agree improvements can be made in the evaluation and monitoring of its
subgrantees. We will revise our current tool to include language that more clearly
documents whether Member hours were spent on allowable activities and prohibited
activities were not performed. In addition, the site visit tool has been modified to include
a list of all member files reviewed on site. To ensure that site visits are conducted in a
timely manner, we have set up a spreadsheet that tracks the projected visit timeframe,
actual scheduled date, and follow up timeline.
                                                                    AmeriCorps National Service   C 0 R P 0 R A T I0 3

                                                                                                  FOR S A T I O N A L

MEMORANDUM

                                                           P

To:
Through:
                                          Th,
               Luise Jordan, Inspector Ge ral    .
                                                 /

               William Anderson. ~ c t k g d n i k~'
                                                  f f@al
From:          Peter Heinaru. Director, AmeriCorps Staternational
Subject:       Comments on the OIG Draft Report 0
               Commission on National and Community Service
Date:          January 29.200 1




We have reviewed the draft report of the pre-audit survey of the Texas Commission on
Volunteerism and Community Service (the Commission) and offer the following comments              011
the report's findings and recommendations.

In the area regarding select in^ Sub~rantees,the report makes three findings concerning the
effectiveness of the selection process. Two of the findings relate to operations prior to 1999. and
since current systems are adequate. there are no recommendations.

Regarding the missing Conflict of Interest Forms,for Selection Officials. we agree that the
Commission should require its selection officials to sign conflict of interest statements and
maintain those statements on file. In the past, the Commission used conflict of interest
statements on an as-needed basis only. For present and future grant years. its policy has changed
to an all-encompassing one that applies to all commissioners. CNS will follow up with the
Commission to assure these practices are in place.

In the area of Adrninisterin~Grant Funds. the report makes three findings and two
recommendations.

CNS concurs with the recommendation regarding Maintenance of Grunt Award Finunciul
Informution.

The report states that the Commission has policies and procedures for follow-upwith its .-,.*.
subgrantees regarding Follow L'p with Subgrantees Regarding Delinquent Matching                     1201 New York Avenue. NH
Requirements. However, as stated. the process is being conducted on an informal basis and          Washmflon.    DC 20525
                                                                                                   Telephone 202-5000




                                                                                                   U T h i n g s Done.
                                                                                                    hencorps Vatlanai %MC
                                                                                                    Learn and Serve Amcnca
                                                                                                    Vatlonal Senfor S ~ W I CCOT
                                                                                                                              ~
needs to be documented. We concur and will work with the Con~missionto assure these
informal processes are formally documented.

b3th the implementation of the Web Based Reporting Sq stem (U'BRS). an adequate tracking
s>stems are now in place to correspond to the third finding. T i m e l ~.Cuhtnission of FSRs

In the area of Evaluation and Monitoring of Subgrantees. the report makes three
recommendations for improving the effectiveness of the Commission's monitoring practices.

Regarding the first recommendation. revise the site visit monitoring tool to include specific
pwcedures to determine whether :2lernber hours were spent on ~ d l o ~ t d d~~c'tivitics..
                                                                             e        .m d tli~rt
prohibited uctivities were not perfhrmed. we do not concur. but we do support the concept of an
annual risk-based site visit plan and documenting results and resolutions.

Through a review of member contracts and by reviewing individual program's member training
agendas. Commissions can generally ensure that programs are appropriately training their
members about prohibited activities. It appears that currently the Commission is adequately
ensuring that members are trained and aware of prohibited activities.

We concur with the second recommendation. estublish and follow an unnual site \.isit plun. and
affirm that the Corporation is working with the Texas Commission on Volunteerism and
Community Service to develop and implement a risk-based site visit plan.

Regarding the third recommendation, document results of all site visits and conc1usion.c reluted
to all identified issues, as noted above. the Corporation advocates a risk-based strategy for
monitoring programs, and we are working with the Texas Commission to ensure that its
monitoring strategy for subgrantees is risk-based and adequate.
